   March 25, 2002




Financial
Management
DoD Payroll Withholding Data for
FY 2000
(D-2002-070)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CSRS                Civil Service Retirement System
DeCA                Defense Commissary Agency
DFAS                Defense Finance and Accounting Service
DISA                Defense Information Systems Agency
DLA                 Defense Logistics Agency
FERS                Federal Employees Retirement System
NIMA                National Imagery and Mapping Agency
OPM                 Office of Personnel Management
TSP                 Thrift Savings Plan
DISTRIBUTION:

          UNDER SECRETARY OF DEFENSE (COMPTROLLER)
          UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
             READINESS
          ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
             MANAGEMENT AND COMPTROLLER)
          DIRECTOR, DEFENSE COMMISSARY AGENCY
          DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
          DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
          DIRECTOR, DEFENSE LOGISTICS AGENCY
          DIRECTOR, DEFENSE SECURITY SERVICE
          DIRECTOR, NATIONAL IMAGERY AND MAPPING AGENCY
          NAVAL INSPECTOR GENERAL
          AUDITOR GENERAL, DEPARTMENT OF THE ARMY
          DIRECTOR, DOD EDUCATION ACTIVITY
          DIRECTOR, CIVILIAN PERSONNEL MANAGEMENT SERVICES




                             2
                       Office of the Inspector General, DoD
Report No. D-2002-070                                                   March 25, 2002
  (Project No. D2000FH-0130.001)

                 DoD Payroll Withholding Data for FY 2000

                                   Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. We
performed this audit as a joint agency effort with the Defense Finance and Accounting
Service (DFAS) internal review staff, who made a significant contribution by reviewing
many sample items. Office of Management and Budget Bulletin No. 01-02,
October 16, 2000, requires all Federal agencies to review the retirement, health, and
life insurance withholdings and agency contributions during the course of conducting
audits and specifies the procedures to apply. The DoD Financial Management
Regulation prescribes the requirements of the DFAS payroll accounting system,
including an audit trail and an ability to query data. DoD payroll offices remitted more
than $2 billion to the Office of Personnel Management for FY 2000 in retirement,
health, and life insurance withholdings and agency contributions for more than 675,000
DoD civilian employees with a total annual payroll of $25.2 billion. This is the second
of a series of reports on payroll withholding for FY 2000.

Objectives. Our objective was to determine whether the retirement, health, and life
insurance withholdings and employee data that DoD submitted were accurate and
supported, and to determine the annualized dollar magnitude based on the statistically
projectable sample. We also assessed management controls and compliance with laws,
regulations, and procedures relative to payroll withholding data that DoD submitted.

Results. The personnel offices of the Military Departments and Defense agencies did
not have adequate controls to support the accuracy of the payroll amounts withheld.
Specifically, the Military Departments and Defense agency personnel offices did not
ensure the accuracy of payroll withholding documents that support withholdings and
deductions authorized. The Military Departments and Defense agency personnel
offices did not ensure retention of files, documents, and data for supporting payroll
withholding. The Military Departments and Defense agency personnel offices did not
ensure transmission of payroll election data to the DFAS in an adequate and timely
manner. As a result of the lack of controls, payroll withholding was statistically
estimated to be $68 million different than indicated in official personnel files. The
statistically projected error rate from the sample is 9.29 percent, which is a repeat
finding from a prior audit report. The statistically projected number of records in error
(had one or more deficiencies in gross pay or withholding) is 1.59 million out of
17.1 million payroll records in the Defense Civilian Payroll System database (a record
is a civilian employee for one pay period). This is a repeat finding from Inspector
General, DoD, Report No. D-2000-156, “DoD Payroll Withholding Data for
FY 1999,” June 29, 2000, with a non-statistically based error rate of 8.6 percent. For
details of the audit results, see the Finding section of the report. See Appendix A for
details on the management control program.

Summary of Recommendations. We recommend the Military Departments complete
the process of automating payroll elections to improve accuracy and data retention and
that Defense agencies start such a process. We also recommend the Military
Departments and Defense agencies improve the processing of withholding documents
and correct the errors in personnel files discussed in this report. We recommend the
Military Departments report the results of their internal reviews of civilian personnel
documents and data in terms of the performance measures for assessing the accuracy of
payroll withholding.

Management Comments. The Army and Defense Security Service did not provide
comments and DoD Education Activity comments were late. The Assistant Secretary
of the Navy (Manpower and Reserve Affairs) disputed the results on $180.67 of errors
out of $735.53, and concurred on the recommendations. The Chief, Civilian Policy
Division, U.S. Air Force, concurred and proposed appropriate corrective actions. The
Defense Commissary Agency (DeCA) concurred and agreed to issue operating guidance
and to correct individual records. The DFAS concurred and implemented reports to
assist the personnel community, and also stated that it would correct the records. The
Defense Information Systems Agency (DISA) nonconcurred even though it conceded
that personnel records were misplaced or misfiled on two out of three cases. However,
it completed actions consistent with the intent of the recommendations. The Defense
Logistics Agency (DLA) partially concurred but actually took implementing action to
improve the processing of withholding documents and also stated that the records of the
employees identified have been corrected. The National Imagery and Mapping Agency
(NIMA) concurred and stated that new control procedures effective November 1, 2001,
will ensure recent changes are reflected in pay, and that discrepancies in employee
records have been corrected. A discussion of management comments is in the Finding
section of the report, and the text is in the Management Comments section.

Audit Response. The Army and Defense Security Service did not provide comments.
The Navy comments were partially responsive; however, the Navy did not specify
actions taken to direct staff to report the results of internal reviews in terms of
performance measures. The Air Force comments were responsive and the Air Force
proposed actions to effectively implement the recommendations. The comments from
the DeCA, DFAS, DLA, and the NIMA were responsive and the actions taken met the
intent of the recommendations. Although the DISA nonconcurred, the actions taken
were responsive and met the intent of the recommendations. We considered all of their
comments and included them in this report. We received late comments from the DoD
Education Activity that were not incorporated in this report. We will consider those
comments as a response to the final report unless we receive additional comments from
the DoD Education Activity. We request that the Army, the Defense Finance and
Accounting Service, the Defense Security Service, and the Navy provide comments on
the recommendations by May 24, 2002.

                                           ii
Table of Contents

Executive Summary                                                        i

Introduction
     Background                                                          1
     Objectives                                                          1

Finding
     DoD Payroll Personnel Records                                       3

Appendixes
     A. Audit Process
          Scope                                                         17
          Methodology                                                   17
          Management Control Program Review                             18
          Prior Coverage                                                19
     B. Summary of Errors                                               20
     C. Statistical Sampling Methodology                                30
     D. Report Distribution                                             33

Management Comments
     Department of the Navy                                             35
     Department of the Air Force                                        36
     Defense Logistics Agency                                           37
     Defense Commissary Agency                                          40
     Defense Finance and Accounting Service                             42
     National Imagery and Mapping Agency                                45
     Defense Information Systems Agency                                 48
     Deputy Assistant Secretary of Defense, Civilian Personnel Policy   51
Background
     Joint Teaming Audit. To accomplish this statistically projectable audit we
     performed a joint team effort with Defense Finance and Accounting Service
     (DFAS) internal review personnel. Due to the large required sample size of
     1,480 individuals, the Inspector General, DoD, staff was supplemented with
     DFAS staff to more expeditiously complete the audit. This audit could not have
     been completed as timely without the excellent work of the dedicated DFAS
     professional staff and the cooperative approach between them and the Inspector
     General, DoD.

     Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
     Act of 1990,” November 15, 1990, requires Federal organizations to prepare
     annual audited financial statements. The Chief Financial Officers Act also
     requires the Inspectors General to audit all financial statements prepared under
     its guidelines. The Chief Financial Officers Act, as amended by Public Law
     103-356, the “Federal Financial Management Act of 1994,” October 13, 1994,
     has required DoD and other Government agencies to prepare agency-wide
     financial statements since FY 1996.

     Audits of Federal Financial Statements. Office of Management and Budget
     Bulletin No. 01-02, “Audits of Federal Financial Statements,” October 16,
     2000, (the Bulletin), establishes responsibilities and standards for audits of
     Federal financial statements. Appendix I-1 of the Bulletin outlines agreed-upon
     procedures to be applied separately for each agency payroll office that services
     civilian employees during the year. The period subject to the agreed-upon
     procedures is for the 12 months ending September 30 of each year. On October
     30, 2000, we submitted a separate memorandum report on the application of the
     agreed-upon procedures to the Inspector General of the Office of Personnel
     Management (OPM). This report reflects our subsequent efforts to statistically
     project the dollar differences as applied by the procedures listed in the appendix
     I-1, but increased the sample size from 280 to 1,480.

     Payroll Responsibilities. DFAS provides payroll services to DoD. These
     payroll services include calculation of gross pay, payroll withholding, and
     reporting the amounts withheld to OPM. DFAS reports more than $2 billion in
     withholding to OPM annually for more than 675,000 DoD civilian employees
     included in the total annual civilian payroll of approximately $25.2 billion.
     DoD civilian personnel offices and regional centers are responsible for
     maintaining the documentation that supports all DoD civilian personnel
     withholding elections and gross pay amounts.

Objectives
     The overall audit objective was to determine whether the retirement, health
     benefits, and life insurance withholdings and employee data that DoD submitted
     to OPM for FY 2000 were accurate and supported. Though not required, we
     also wanted to be able to statistically project the dollar differences to an
                                         1
annualized basis, which resulted in this larger sample size. Appendix I-1 of the
Office of Management and Budget Bulletin No. 01-02 specifies the procedures
that we applied to meet the objective. We also assessed management controls
and compliance with laws, regulations, and procedures relative to payroll
withholding data that DoD submitted. Appendix A includes a discussion of
scope, methodology, the management control program review, and prior audit
coverage.




                                    2
           DoD Payroll Personnel Records
           Documents to authorize payroll withholdings that are maintained in
           personnel files do not agree with the amounts withheld by DFAS. The
           lack of support occurred because personnel offices in Military
           Departments and Defense agencies did not have adequate controls over
           data that support the accuracy of the payroll amounts withheld. The
           personnel offices did not complete the process of automating payroll
           elections. Without an automated payroll elections system, forms
           prepared were often incomplete and personnel payroll data were not
           always transmitted promptly to DFAS. In addition, data supporting
           payroll withholding elections were not always retained in personnel files.
           As a result of the lack of controls, payroll withholding was statistically
           estimated to be $68 million different than indicated in official personnel
           files. The statistically projected error rate from the sample is
           9.29 percent. The statistically projected number of records in error (had
           one or more deficiencies in gross pay or withholding) is 1.59 million out
           of 17.1 million payroll records in the Defense Civilian Payroll System
           database. This is a repeat finding from Report No. D-2000-156, “DoD
           Payroll Withholding Data for FY 1999, June 29 2000 with a non-
           statistically based error rate of 8.6 percent.

Documentation
    Civilian Personnel Office Records. Documentation in civilian personnel office
    records and databases supports and authorizes payroll deductions for retirement,
    health benefits, and life insurance. Internal controls should ensure amounts
    withheld as payment for benefits are authorized and accurate. One internal
    control over the civilian payroll system, to ensure accuracy, is to compare
    personnel authorizations to what DFAS actually withholds. Without
    authorization, DFAS does not have the authority to deduct the amount withheld.
    In the past, DoD civilian employees made elections almost exclusively on paper
    forms. DoD personnel offices retained the signed forms as evidence of the
    employee’s elections for particular benefits and authorization for withholdings.
    During FY 2000, most Air Force civilian employees were able to make
    elections electronically, and Air Force retained electronic records to document
    those elections. During FY 2000, most Army, Navy, and Defense agency
    civilian employees made the elections on paper forms. Therefore, Army, Navy,
    and Defense agencies had to retain paper copies of the elections in official
    personnel files. For purposes of our audit, we defined an error as an
    inconsistency or discrepancy between personnel file documentation (electronic
    or paper) and payroll withholding data. We considered the documents in the
    personnel file to be the controlling documents for the employee since this was
    the official authorization.

    Requirements for Audit Trails. DoD Regulation 7000.14-R, “DoD Financial
    Management Regulation,” May 1993 with changes through April 2001, states
    that accounting systems must have audit trails that allow transactions to be
    traced from initiation through processing to final reports. A fundamental

                                        3
    requirement of a good audit trail is that it adequately supports the transactions
    and payroll deductions forwarded to OPM for employee benefits. In addition, a
    good audit trail can be traced from final reports to the initiating transaction
    document. The audit trail provides management with assurance that support for
    any transaction can be easily identified for resolution or analysis. All
    transactions and deductions should be supported with pertinent documents and
    source records.

Controls
    Civilian personnel offices did not have adequate controls to retain
    documentation and promptly communicate payroll withholding elections to the
    Defense Civilian Personnel System. In addition, the civilian personnel offices
    lacked adequate controls to accurately calculate gross pay and withholding
    amounts. Sixty-five of the errors were caused by outdated (11) or missing
    documents (54). For example, deductions of $43.80 for health insurance and
    $77.02 for the Thrift Savings Plan for one sampled employee were not
    supported by forms in the official personnel file. Forty-six of the errors were
    caused by not transmitting the payroll withholding information (32), by late
    transmitting (13), and by transmitting the wrong data (1). As an example, one
    employee canceled his health insurance but $57.86 continued to be withheld
    from his pay for health insurance. Eighty-six of the differences were calculation
    errors. Seventeen of these were due to not changing the pay rate and 4 were
    due to late approvals of pay changes. An automated system could easily include
    features to notify personnel administrators that a pay rate change or approval is
    due. For example, one employee was underpaid $53.42, which affected life,
    retirement, and Thrift Savings Plan withholding. If DoD civilian personnel
    offices successfully automated payroll withholding forms, communications, and
    personnel actions, they could prevent errors in documentation, communication,
    and calculations.

Supporting Documentation
    Files Reviewed. Personnel offices and regional centers lacked adequate
    documentation and supporting data for payroll deductions. Out of our sample of
    1,480 employee personnel records, 127 records had one or more deficiencies in
    their gross pay or withholding amounts. Some of the records had one or more
    deficiencies because of inadequate documentation, and other records had
    calculations inconsistent with the document support because personnel offices
    did not promptly transmit personnel payroll data to DFAS. Because some
    sample items had more than one error, the errors totaled 201. The lack of
    supporting documentation caused errors in the payroll categories of gross pay,
    retirement, Thrift Savings Plan (TSP), health benefits, and Federal Employee
    Group Life Insurance (life insurance) withholding amounts.

    File Not Provided. Personnel offices and regional centers were not able to
    provide 1 official personnel file of the 1,480 records sampled. This sampled
    employee with a missing official personnel file we treated as an error in all

                                        4
    audited categories. However, since the missing sampled employee was in a
    leave without pay status, we did not project any dollar amounts.

    Table of Errors in Supporting Documentation. The following table identifies
    the number of errors by payroll deduction.

                            Errors in Supporting Documentation

                  Gross     CSRS1       FERS2        TSP       Health      Life     Total
                   Pay                                         Benefit     Ins.

    Errors          19        14             22       43          38        65       201

     1
         Civil Service Retirement System
     2
         Federal Employees Retirement System


Accuracy of Withholding Amounts
    Gross Pay. Gross pay errors project statistically to a point estimate of
    $15.6 million on an annualized basis. Gross pay was not supported in 19
    instances. The 19 instances in which the gross pay was not supported included
    8 missing documents ($453.20 per pay period), 10 calculations errors ($595.82
    per pay period), and one late approval ($172.61 per pay period). (Calculation
    errors include Standard Form 50s prepared after the effective date of the pay
    change, without a reasonable explanation.) For example, one civilian employee
    was underpaid by $17.60 per pay period for 4 pay periods because the SF 50,
    “Notification of Personnel Action,” effective March 26, 2000, was not signed
    until June 1, 2000. The effect of the errors could result in a civilian employee
    not receiving the correct amount of net pay, and possibly a future liability due to
    an overpayment.

    The following figure shows the statistically projected value of the errors by
    category.




                                         5
                            Estimated Annualized Total Cost of Errors

30

25

20

15

10

5

0
       Gross Pay      Retirement          TSP            Health             Life
      $15,627,947     $1,772,674     $25,144,963      $19,497,565       $6,298,155




     Retirement. Retirement errors project statistically to a point estimate of
     $1.8 million on an annualized basis. Our sample identified 632 of 1,480
     participants who were in CSRS, 771 participants who were in FERS, and 77
     participants who were not eligible or not in a plan for other reasons.

     Specifically, 14 retirement withholding (contribution) errors for CSRS were
     caused by:

               •    4 errors due to failure to change the pay rate ($8.65 per period),

               •    2 missing forms ($8.22 per pay period),

               •    2 outdated personnel action forms ($12.90 per pay period), and

               •    6 calculation errors ($26.68 per pay period).

     Additionally, 22 retirement withholding errors for FERS were caused by:

               •    5 errors due to failure to change the pay rate ($3.99 per period),

               •    5 outdated personnel actions forms ($4.89 per pay period),

                                          6
          •   10 calculation errors ($46.46 per pay period),

          •   1 error due to a missing form, and

          •   1 error due to late transmittal ($.36 per pay period).

Thrift Savings Plan. Errors project statistically to a point estimate of
$25.1 million. We also identified 43 TSP errors ($2,174.17 per pay period)
because of:

          •   1 incomplete election ($148.56 per pay period),

          •   11 missing forms ($1,099.57 per pay period),
          •   4 outdated forms ($17.48 per pay period),

          •   13 calculation errors ($385.31 per pay period),

          •   8 failures to change the pay rate ($31.45 per period), and

          •   6 errors due to late data transmittal ($491.80).

Because TSP election forms were not consistently completed and on file, DoD
was not assured of the accuracy of amounts withheld for DoD civilian
employees and that the elections of DoD civilian employees were actually
reflected in their payroll and their Thrift Savings Plans.

Because potential errors may repeat until corrected and considering compound
interest that could be earned, a single error for an employee could multiply to a
significant amount over time.

Health Benefits. Health benefits plan errors project statistically to a point
estimate of $19.5 million on an annualized basis. We compared the amounts
withheld in the payroll data files with the amounts that should have been
withheld according to the personnel file documentation. We identified 38 health
benefits withholding errors. The 38 errors were caused by:

          •   13 missing documents ($702.73 per pay period),

          •   3 late data transmittals ($80.52 per pay period),

          •   16 health plan elections not transmitted ($636.01 per period), and

          •   6 calculations errors ($185.53 per pay period).

For example, one employee had $66.78 withheld even though the employee’s
election form on file should have required withholding of only $30.04. The
employee signed the form on November 17, 1999, with the action to take effect
on January 2, 2000. However, the personnel office failed to transmit the change


                                    7
    in time for the pay period ending April 22, 2000. Health benefits selected by
    employees must be transmitted to DFAS accurately and timely to ensure that
    withholdings are authorized.

    Life Insurance. Life insurance errors project statistically to a point estimate of
    $6.3 million on an annualized basis. We recalculated the amount that should
    have been withheld for life insurance coverage based on personnel file
    documentation and the Federal rates for life insurance. The Federal rates for
    life insurance are in the Federal Employees Group Life Insurance handbook
    (RI76-21). Our analysis reflected 65 life insurance withholding errors. The 65
    withholding errors were caused by:

              •    16 data transmittals not made ($329.83 per pay period),
              •    20 personnel folders with no form ($170.29 per pay period),

              •    22 calculation errors ($28.33 per pay period),

              •    3 late pay change approvals ($1.78 per pay period),

              •    3 late data transmittals ($1.02 per pay period), and

              •    1 sample item with data transmitted wrong ($1.40 per period).

    For example, one employee elected basic life plus option A, four option B’s,
    and two option C’s effective January 10, 2000, and $18.75 should have been
    withheld per pay period. However, as of April 22, 2000, the new life election
    had not been transmitted to DFAS and the pay withholding was only $10.23 per
    pay period, the cost of basic life insurance for this employee. Life insurance
    was underwithheld for this employee by $8.52 per pay period. Because life
    insurance election forms were not consistently entered into the personnel and
    payroll system, DoD was not assured of the accuracy of amounts withheld for
    DoD civilian employees and that the elections of DoD civilian employees were
    actually reflected in their payroll. Employees could choose a high rate of life
    insurance coverage, but would have inadequate withholding amounts withheld.
    The inadequate withholding could create a situation where the employee could
    be billed for the coverage at a later date for an amount significantly greater than
    the biweekly withholding.

Measures of Performance and Validation
    Personnel File Documentation. DoD needs to improve the accuracy of its
    payroll withholding data because personnel file documents supporting payroll
    deductions were missing or not current. We identified documentation errors in
    personnel files that affected gross pay calculations, retirement, thrift savings,
    health benefits, and life insurance. We also determined that personnel offices
    did not have reliable systems for retaining accurate payroll elections or for the
    prompt transmission of information to DFAS. Additionally, timely corrections
    to personnel files did not occur. The Military Departments were implementing
    measures for assessing the support for gross pay and payroll withholding from
                                         8
personnel file records and accounting records. However, those measures had
not yet shown an appreciable improvement. In addition, the Military
Departments were just starting to implement feedback mechanisms to alert
management to those problems.

Army Personnel. The Army deployed the Modern Defense Civilian Personnel
Data System at 7 of its 10 regional Civilian Personnel Operations Centers during
FY 2001. The remaining Civilian Personnel Operations Centers are scheduled
for deployment by FY 2002. The Army planned to implement the Interactive
Voice Response System and the Electronic Benefits Information System to effect
paperless elections. In order to implement these systems, the Army will revise
prior processes and procedures for the submission of personnel actions. The
Army expected that these revisions would improve accuracy of personnel and
payroll withholding data. Although implementing an electronic personnel
system and automating benefits elections will improve accuracy of future
personnel and payroll withholding data, it will not correct existing errors.

Navy Personnel. The Navy, in conjunction with DFAS, developed an
improved pay process design model to clarify roles and responsibilities in order
to improve benefits processing. Navy and DFAS also prepared a Frequently
Asked Questions document based on 30 problem areas identified. Additionally,
Navy and DFAS improved the reconciliation process used to synchronize the
human resources and pay/benefits data systems. This included publishing and
adhering to a strict timeline for executing reconciliations. The Navy also
deployed the Defense Modern Civilian Personnel Data System at six of its
regional human resource service centers during FY 2001. The Navy’s Human
Resource Assessment Program was instituted with the issuance of
SECNAVINST 12273.1, “Assessment and Evaluation of Civilian Human
Resources Management,” on March 16, 1999. Navy provided more detailed
guidance to its operating human resource offices through Guide # 273-02, “A
Self-Assessment Guide for Human Resource Service Providers.” The Navy
intends for field level human resource providers to apply this guidance to assess
the timeliness, completeness, and accuracy of service in the areas of life
insurance, health insurance, pay adjustments, TSP, and retirement.

Air Force Personnel. The Air Force used an automated Interactive Voice
Response/Web System for civilian employee payroll withholding elections. The
automated system allows for electronic filing of personnel documents, internal
quality control checks on the systems processes, the ongoing review of
personnel data system control products, and the aggressive working of the
payroll reconciliation process.

Prior Report. The Inspector General, DoD, issued Report No. D-2000-156,
“DoD Payroll Withholding Data for FY 1999,” on June 29, 2000. We
recommended establishing procedures that ensure timely and accurate payroll
election records and prompt transmission of personnel payroll data; correcting
errors determined by audit for FY 1999; establishing a review system for
employee payroll elections; and establishing performance measures for assessing
the accuracy of payroll withholding data. We recommended that the Director,
Defense Finance and Accounting Service, develop software capable of correctly
extracting electronic files that support the withholding amounts reported and
                                    9
    implement management control procedures that ensure clear identification and
    communication of responsibilities. The Military Departments have since
    deployed the Modern Defense Civilian Personnel Data System, and automated
    telephone and web based election systems to improve timeliness and accuracy of
    events and elections affecting gross pay. The Army has had the Civilian
    Personnel Evaluation Agency perform reviews of official personnel files. The
    Navy has assigned review responsibilities. The DFAS adequately supported the
    withholding amounts reported in a second data call for this audit, but not in the
    first data call. The DFAS established new internal control procedures for clear
    identification and communication of responsibilities.

Conclusion
    There were errors in personnel records documenting employee gross pay and
    withholding for retirement, health benefits, and life insurance. DoD had
    deficiencies in employee records because Military Department and Defense
    agency personnel activities had not completed automating the processes of
    making payroll elections and retaining the payroll election data in electronic
    form. Also, DoD personnel offices did not fully have in place an effective
    system to review and correct civilian employee personnel data and documents
    and civilian employee withholding data on a timely basis. Automating the
    process of making payroll elections will provide opportunities to use software to
    improve the accurate completion of personnel documents. It will also reduce
    reentry of data and improve the prompt transmission of personnel payroll data to
    DFAS. In addition, automating the process of making payroll elections and
    retaining data will help DoD improve management controls for DoD personnel
    offices and regional centers. Until the process of making payroll elections is
    automated and fully implemented throughout DoD, the deficiencies noted will
    not be corrected and personnel documentation and personnel data files will not
    support amounts paid and withheld by DFAS. Although implementing an
    electronic personnel system and automating benefits elections will improve
    accuracy in the personnel and payroll withholding data in the future, existing
    errors need to be corrected.

Management Comments on the Finding and Audit Response
    Although not required to comment, the Civilian Personnel Management Service
    provided the following comments on the finding. For the full text of the
    Civilian Personnel Management Service comments, see the Management
    Comments section of the report.

    Civilian Personnel Management Service Comments. Although the report is
    dated November 2001, data were collected during five pay periods in the
    October 1999 through September 2000 timeframe. The Military Departments
    and many of the Defense agencies have implemented or are in the process of
    implementing phone or web benefit administration procedures. Consequently,
    the information in the report is outdated. The draft audit report concludes that
    civilian personnel offices did not have adequate controls to ensure accurate

                                        10
    calculation of gross pay and payroll withholding amounts and do not retain
    documentation supporting the accuracy of payroll amounts withheld. The
    responsibility to ensure the accuracy of gross pay calculations, withholding
    calculations, and net pay calculation rests with the payroll office, not the civilian
    personnel office. DFAS is responsible, not the civilian personnel offices, to
    support these computations and retain the documentation for audits of these
    amounts. The report concludes that successfully automating communication of
    payroll withholding elections would reduce communications errors; however,
    communicating payroll withholding elections is already automated. In addition,
    the Army deployed the Modern Defense Civilian Personnel Data System at
    seven Civilian Personnel Operations Centers in FY 2001 and the Navy deployed
    the same system at six Human Resource Service Centers in the same fiscal year.

    Audit Response. The information in the report is contemporary and not
    outdated. Specifically, we collected data from December 2000 through June
    2001 for the five pay periods audited. We also discussed with Military
    Department personnel management ongoing efforts to modernize and automate
    benefit administration. Many of the items sampled and some of the errors
    noted were the result of telephone or web benefit administration. This report
    concluded that personnel offices did not have adequate controls over data that
    support the accuracy of payroll amounts withheld, not that civilian personnel
    offices were directly responsible for payroll office functions including
    calculation of gross pay and payroll withholding amounts. However, civilian
    personnel offices are responsible for retaining documentation of civilian
    employee elections and personnel actions affecting the calculation of these
    amounts. We note that communicating withholding elections is already
    automated; however, there were personnel records with elections on file that
    were not successfully communicated to the Defense Civilian Pay System and
    were not reflected in the payroll withholding. Successfully automating this
    communication between the civilian personnel office and the Defense Civilian
    Payroll System would eliminate errors where elections are made and recorded or
    documented, but are not communicated to the Defense Civilian Payroll System.
    Successfully automating the system would require combining the election
    process with the automatic communication element. The final report reflects the
    number of Army and Navy sites that deployed the Modern Defense Civilian
    Personnel Data System in FY 2001, with adjustments as suggested by the
    Civilian Personnel Management Service.



Recommendations, Management Comments, and Audit
  Response
    1.    We recommend that the Assistant Secretary of the Army (Manpower
    and Reserve Affairs), the Assistant Secretary of the Navy (Manpower and
    Reserve Affairs), and the Assistant Secretary of the Air Force (Manpower,
    Reserve Affairs, Installations, and Environment):



                                         11
    a. Complete the process of automating payroll elections to improve
accuracy, to speed transmission of data to the Defense Finance and
Accounting Service, and to retain payroll data in electronic form by
extending the use of automated systems for making payroll elections to all
civilian employees.

Management Comments Required. We request comments from the Army on
Recommendation 1.a.

Navy Comments. The Assistant Secretary of the Navy (Manpower and Reserve
Affairs) concurred and stated that the Navy is already automating the benefits
election process. The Assistant Secretary of the Navy expects to have this
Web-enabled system fully deployed across the Navy by the third quarter of
FY 2002.
Air Force Comments. The Chief, Civilian Policy Division, Directorate of
Personnel Force Management, Headquarters, United States Air Force concurred
and stated that it will be participating in a Government-wide system in June
2002 for health insurance reconciliation. The Air Force is migrating to the
Modern Defense Civilian Personnel Data System and electronic programs such
as electronic Official Personnel File, and Personnel Automated Records
Information System.

Civilian Personnel Management Service Comment. Although not required to
comment, the Civilian Personnel Management Service agreed that increased
automation of employee Thrift Savings Plan, health benefits, and life insurance
elections will reduce errors caused by delayed or erroneous input. The
recommendation to automate has largely been accomplished.

  b. Correct the errors in personnel files discussed in this report (see
Appendix B for specific errors identified).

Management Comments Required. We request comments from the Army on
Recommendation 1.b.

Navy Comments. The Assistant Secretary of the Navy (Manpower and Reserve
Affairs) concurred but believed that 13 of the 26 errors in Navy civilian
personnel payroll data were attributable to processing failures by the Defense
Finance and Accounting Service or other agencies, by first line supervisors, or
that the alleged error did not occur. The Navy has already corrected the errors.
We calculated the dollar amount for those files the Navy disputed and the results
were $180.57 out of $735.43 for all 26 errors.

Audit Response. Automating the process of making payroll elections will
reduce errors by everyone involved in processing payroll withholding
information, including Navy personnel offices, Defense Finance and Accounting
Service, and first line supervisors.

Air Force Comments. The Chief, Civilian Policy Division, concurred and
stated that the errors have either already been corrected or will be corrected by
March 31, 2002.
                                    12
   c. Report the results of internal reviews of civilian personnel documents
and data in terms of the performance measures for assessing the accuracy
and support for gross pay and payroll withholding.

Management Comments Required. We request comments from the Army on
Recommendation 1.c.

Navy Comments. The Assistant Secretary of the Navy (Manpower and Reserve
Affairs) concurred but did not specify how the Navy would accomplish
Recommendation 1.c.

Audit Response. The Navy needs to provide additional comments explaining
how it will direct personnel to report the results of internal reviews of civilian
personnel documents and data in terms of the performance measures for
assessing the accuracy and support for gross pay and payroll withholding.

Air Force Comments. The Chief, Civilian Policy Division, concurred and
stated that the Air Force would report the results of their internal reviews of
civilian personnel documents and data in terms of performance measures for
assessing the accuracy of payroll withholding. The Chief, Civilian Policy
Division stated that this recommendation would be provided to supervisors at
the Air Force Personnel Center as well as the Headquarters United States Air
Force performance management program manager.

2.     We recommend that the Director, Defense Logistics Agency; the
Director, DoD Education Activity; the Director, Defense Finance and
Accounting Service; the Director, Defense Commissary Agency; the
Director, National Imagery and Mapping Agency; the Director, Defense
Information Systems Agency; and the Director, Defense Security Service:

   a. Improve the accuracy and timeliness of processing payroll
withholding authorizations.

Management Comments Required. We request comments from the Director,
Defense Security Service on Recommendation 2.a. We received late comments
from the DoD Education Activity that were not incorporated in this report. We
will consider those comments as a response to the final report unless we receive
additional comments from the DoD Education Activity.

Defense Commissary Agency Comments. The Director, Defense Commissary
Agency concurred and stated that the Defense Commissary Agency’s
consolidation of personnel servicing into one central location has improved the
processing of all personnel actions and, most important, of those affecting pay.
Because there is no connectivity between the pay and personnel systems, errors
are likely to continue to occur until this DoD-wide problem is corrected.
Automating some of the benefits processes, so that employees are held
responsible for their own elections and updates, will help reduce pay errors, but
will not fix all the types of problems that occur. The Defense Commissary
Agency will issue operating guidance to improve management accountability for
pay and personnel records. The target date for issuing the guidance is April 1,
2002.
                                     13
Defense Finance and Accounting Service Comments. The Director, Human
Resources, Defense Finance and Accounting Service concurred and stated that
the Defense Finance and Accounting Service had implemented a Personnel
Action and Timeliness Report to assist the personnel community in identifying
problem areas. The Defense Finance and Accounting Service also implemented
a system change request in the Defense Civilian Payroll System to Federal
Employee Group Life Insurance and Federal Employees Health Benefits to
comply with Office of Personnel Management Regulations, effective
December 2, 2001. In addition, a future initiative will be a Time and
Attendance Timeliness Report to assist the customer to identify areas that are
causing delays and inaccurate reporting.

Audit Response. We request the Defense Finance and Accounting Service to
provide additional comments explaining when the Time and Attendance
Timeliness Report initiative is scheduled for completion.

Defense Information Systems Agency. The Inspector General, Defense
Information Systems Agency, nonconcurred with the finding but stated that the
Defense Information Systems Agency implemented the DoD Employee Benefits
Information System in the fall of 2001. The DoD Employee Benefits
Information System is a web application that allows employees to access general
and personal benefits information using a computer. Employees are able to
make Federal Employee Health Benefit, Federal Employee Group Life
Insurance, and Thrift Saving Plan elections electronically. The elections flow
electronically to the Modern Defense Civilian Personnel Data System and the
Defense Civilian Pay System. The Employee Benefits Information System
provides a receipt to the employee and establishes an electronic record. The
Employee Benefits Information System is expected to substantially improve the
processing of withholding documents and prevent errors associated with filing
or loss of hardcopy documents.

Audit Response. The Defense Information Systems Agency has completed
action on this recommendation.

Defense Logistics Agency Comments. The Defense Logistics Agency partially
concurred and stated that systemic issues including lack of input validation and
error handling differences within personnel and pay systems prevent complete
integration of personnel and payroll. The Defense Logistics Agency will
implement an electronic personnel file in the fourth quarter of 2002 that will
receive automated feeds of the key authorizing documents from automated
payroll deduction election systems. The Defense Logistics Agency implemented
the web-based Employee Benefits Information System, enabling Defense
Logistics Agency employees to complete changes to their health benefits, life
insurance, and Thrift Savings Plan directly. The result is an automated
transmission to the health plan carrier as well as direct update of the Modern
Defense Civilian Personnel Data System and its resulting feed to the Defense
Civilian Pay System. Although the Defense Logistics Agency will not eliminate
hard-copy submissions in the near future, improved marketing and continued
enhancements to the systems are expected to increase the percentage of
employee-initiated changes. The Defense Logistics Agency is taking aggressive
action to utilize the available automated systems and is following the guidelines
                                   14
for ensuring proper personnel and payroll interface. Defense Logistics Agency
actions are ongoing with an estimated completion date of the fourth quarter of
2002.

National Imagery and Mapping Agency. The Director, National Imagery and
Mapping Agency, concurred and stated that in the future the National Imagery
and Mapping Agency will adhere to Office of Personnel Management guidance
by implementing new control procedures effective November 1, 2001. These
new control procedures advise the employee to review the Leave and Earnings
Statement to ensure recent changes are accurately reflected. The actual error
identified in the report was the result of not maintaining proper documentation
in an employee’s official personnel file to support a health benefit change. As
part of the agreement between the Defense Finance and Accounting Service and
the agencies for which they provide payroll servicing, mandatory reconciliations
are required three times a year between the Defense Civilian Payroll System and
the Agency personnel system. At Agency discretion, reconciliations can occur
monthly. The National Imagery and Mapping Agency chooses to complete
monthly reconciliation to identify discrepancies between the Defense Civilian
Payroll System and the Agency personnel (Peoplesoft) databases.

  b. Correct the errors in personnel files discussed in this report (see
Appendix B for specific errors identified).

Management Comments Required. We request comments from the Director,
Defense Security Service on Recommendation 2.b. We received late comments
from the DoD Education Activity that were not incorporated in this report. We
will consider those comments as a response to the final report unless we receive
additional comments from the DoD Education Activity.

Defense Commissary Agency. The Defense Commissary Agency concurred
and stated that it would correct the records for the seven individuals by
February 28, 2002.

Defense Finance and Accounting Service. The Director, Human Resources,
Defense Finance and Accounting Service, concurred and stated that the Defense
Finance and Accounting Service would correct the two records.

Defense Information Systems Agency. The Inspector General, Defense
Information Systems Agency, nonconcurred and stated that the three errors in
the report for Defense Information System Agency employees were in fact not
errors. The Defense Information Systems Agency stated that the Federal
Employees Group Life Insurance form in the official personnel file for sample
item 56 supported the payroll deduction, and that the Health Benefits Election
Form in the official personnel file for sample item 138 supported the payroll
deduction and health plan code. The Defense Information Systems Agency
stated that the Federal Group Life Insurance form was on file supporting the
payroll deduction for sample item 139, and added that the form may have been
removed at the time of our audit for administrative activity supporting the
employee’s retirement on December 1, 2001.


                                   15
Audit Response. Defense Information Systems Agency has corrected the errors
identified in our audit. So in fact the recommendation has been implemented
and corrective action taken. The election form in the official personnel file did
not support the deduction being taken for Federal Employees Group Life
Insurance for sample item 56. The Notice of Change in Health Benefits
Enrollment in the file at the time of audit for sample item 138, showed
enrollment code 452, instead of code 451. No Federal Employee Group Life
Insurance form was on file for sample item 139, and therefore the deduction
being taken in the payroll system was not supported by the official personnel
file.

Defense Logistics Agency. The Defense Logistics Agency concurred and
stated that the records of the four employees identified in the report have been
researched and corrections made.
National Imagery and Mapping Agency. The Director, National Imagery and
Mapping Agency concurred and stated that the error identified in the report was
the result of dual health insurance coverage instead of unauthorized withholdings
as stated in the report. In March 2000 the National Imagery and Mapping
Agency identified the discrepancies and took corrective action. Although a
Health Benefits Election Form was initiated to change health benefits
withholding, a copy of the voided Health Benefits Election Form to support the
change was not retained in the employee’s official personnel file. The National
Imagery and Mapping Agency Human Resources recreated the Health Benefits
Election Form supporting Federal Employee Health Benefit deductions for the
identified employee record and filed it in the appropriate official personnel file.
In order to prevent similar events in the future, human resources will conduct
annual random reviews of official personnel folders to ensure Health Benefits
Election Forms have been properly maintained.




                                    16
Appendix A. Audit Process

Scope
    We reviewed a sample of the data and documentation supporting the $2 billion
    in payroll withholding reported during each year by DFAS to OPM for DoD
    civilian personnel. The total annual payroll for about 675,000 DoD civilian
    employees is $25.2 billion. We selected for review the payroll files and
    supporting documentation for the payroll periods that ended October 23, 1999;
    February 26, 2000; April 22, 2000; July 1, 2000; and September 9, 2000. The
    DFAS payroll history database did not support the amount of DoD payroll
    withholding reported to OPM. We made recommendations addressing this
    deficiency for FY 2000 in Inspector General, DoD, Report No. D-2001-109,
    issued April 27, 2001. We also made recommendations addressing this
    deficiency for FY 1999 in Inspector General, DoD, Report No. D-2000-156,
    issued June 29, 2000. We also reviewed DoD plans and actions to automate and
    use electronic media to record DoD civilian personnel withholding elections.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from December 2000 through June 2001 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and the Office of Personnel Management. We visited
    or contacted the Assistant Secretary of the Army for Manpower and Reserve
    Affairs, the Army’s Civilian Personnel Operations Center Management Activity,
    and the Army’s Civilian Personnel Operations Centers at Aberdeen Proving
    Ground, Ft. Belvoir, Redstone Arsenal, Ft. Huachuca, Ft. Riley, and Rock
    Island. We visited the Navy’s Assistant Secretary for Manpower and Reserve
    Affairs, the Navy’s Human Resource Operations Center, and the Navy’s Human
    Resource Centers at Washington, D.C., Norfolk, Philadelphia, Puget Sound,
    and San Diego. We visited or contacted the Headquarters, U.S. Air Force
    (Personnel Force Management) and the Air Force Personnel Operations Center
    at Randolph Air Base and Tinker Air Base. We also visited or contacted the
    Defense Commissary Agency, Defense Information Systems Agency, Defense
    Logistics Agency, the DoD Education Activity, the Defense Security Service,
    and the National Imagery and Mapping Agency. Further details are available
    upon request.

Methodology
    We reviewed data and documentation supporting gross pay and payroll
    withholdings that DFAS reported to OPM, for the five pay periods ended
                                       17
    October 23, 1999; February 26, 2000; April 22, 2000; July 1, 2000; and
    September 9, 2000. We also reviewed management controls over the reporting
    process. We compared the payroll data files with employee personnel forms for
    1,480 randomly selected employees for gross pay, retirement, health insurance,
    and life insurance. The Office of the Inspector General, DoD, assigned 16 staff
    members to this audit including 7 management and technical staff. The Defense
    Finance and Accounting Service, Internal Review assigned nine auditing staff
    members to this audit. DFAS and Inspector General, DoD, personnel each
    reviewed approximately an equal number of sample items for the audit. We
    assured ourselves that we could rely on the audit work of Defense Finance and
    Accounting Service, Internal Review by reviewing most of their workpapers
    prepared to support this audit.

    Statistical Sampling Methodology. The statistical sampling methodology is
    discussed in Appendix C.

    Computer-Processed Data. We did not evaluate the general and application
    controls of the Defense Civilian Pay System that processes payroll data,
    although we did rely on data produced by that system to conduct the audit. We
    did not evaluate the controls because we determined data reliability by adding
    the data provided to us from the system and comparing the totals to summary
    documents previously prepared from data in the system. Not evaluating the
    controls did not affect the results of the audit.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD managers to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of DoD personnel offices’ management controls over official
    personnel files. Specifically, we reviewed DoD personnel offices’ management
    controls over accuracy of personnel elections for payroll withholding,
    transmission of payroll withholding data to DFAS, and retention of personnel
    payroll withholding election data in the official civilian personnel files. We
    reviewed the annual statements of assurance by the Military Departments and
    Defense agencies to determine whether they disclosed the inconsistency between
    official personnel files and Defense Civilian Pay System payroll withholding
    data.

    Adequacy of Management Controls. We identified a material management
    control weakness for DoD personnel offices as defined by DoD Instruction
    5010.40. DoD personnel offices’ management controls for accuracy of
    personnel payroll withholding elections, timely transmission of personnel
    payroll withholding data to DFAS, and retention of personnel payroll

                                      18
    withholding election data in official personnel files were not adequate to ensure
    that civilian personnel were paid and withholdings made properly, that civilian
    personnel payroll withholding data were transmitted in a timely manner, and
    that documents and data supporting payroll withholding were retained in the
    official personnel files. Recommendations 1.a., 1.b., and 2., if implemented,
    will improve DoD personnel office payroll withholding procedures. A copy of
    the report will be provided to the senior official responsible for management
    controls of the personnel offices of the Military Departments and Defense
    agencies.
    Adequacy of Management’s Self-Evaluation. The management self-evaluation
    by the Military Departments and Defense agencies did not identify the material
    weakness because management did not identify the area as an assessable unit.

Prior Coverage
    The Inspector General, DoD, and the Air Force Audit Agency have conducted
    multiple reviews related to civilian payroll information, controls over the
    payroll process, and payroll expenses. Unrestricted Inspector General, DoD,
    reports can be accessed on the Internet at www.dodig.osd.mil/audit/reports.
    Unrestricted Air Force Audit Agency reports can be accessed on the Internet at
    www.afaa.hq.af.mil.

    Inspector General, DoD

    Inspector General, DoD, Report No. D-2000-156, “DoD Payroll Withholding
    Data for FY 1999,” June 29, 2000




                                        19
Appendix B. Summary of Errors
        We identified 127 sample items that included one or more errors apiece, for a total of 201
       errors, as shown.

Sample    Agency     Net Dollar   Error(s)                    Number of Annual
Number               Amount                                    Errors   Withholding
                     Per Pay                                            Error in
                     Period                                             Dollars

  15         AF           57.13 Late pay raise, FERS,              4           1,485.38
                                TSP, life

 214         AF              .16 Life calculation error            1                4.16

 107         AF            8.07 Health election not                1             209.82
                                transmitted

 226         AF           34.79 Health and life not                2             904.54
                                documented

  1          AF           11.66 TSP not documented                 1             303.16

 240         AF              .34 Life insurance not                1                8.84
                                 documented

 167         AF           66.78 Health election not                1           1,736.28
                                transmitted

 182         AF                0 Official Personnel File           2                   0
                                 missing, no pay

 154         AF           93.57 Missing life and health            2           2,432.82
                                elections

 084         AF              .47 FERS calculation error            1              12.22

 178         AF           66.78 Health election not                1           1,736.28
                                transmitted

 133         AF            7.74 Late pay increase, CSRS            2             201.24




                                                20
Sample   Agency   Net Dollar   Error(s)                 Number of Annual
Number            Amount                                 Errors   Withholding
                  Per Pay                                         Error in
                  Period                                          Dollars

 037      AF           73.63 Health election not           1         1,914.38
                             transmitted

 146      AF           11.67 Health election not           1           303.42
                             transmitted

 074      AF           70.04 Health election not           1         1,821.04
                             documented

 085      AF             .46 Life calculation error        1            11.96

 451     Army          41.18 Health calculation error      1         1,070.68

 432     Army          66.78 Health election not           1         1,736.28
                             documented

 181     Army         148.56 Invalid TSP election-         1         3,862.56
                             blank part

 348     Army          30.40 Pay not documented            1           790.40

 296     Army          63.83 Health and life not           2         1,659.58
                             transmitted

 007     Army          62.32 Health election not           1         1,620.32
                             documented

 212     Army          75.16 TSP election not              1         1,954.16
                             transmitted

 111     Army         117.59 Health, life not              2         3,057.34
                             documented

 347     Army          40.36 TSP election not              2         1,049.36
                             transmitted

 160     Army            .15 Life calculation error        1             3.90




                                           21
Sample         Agency     Net Dollar       Error(s)                 Number of Annual
Number                    Amount                                     Errors   Withholding
                          Per Pay                                             Error in
                          Period                                              Dollars

     469        Army            47.30 Life election not                1         1,229.80
                                      documented

     150        Army               .03 CSRS calculation error          1              .78

     395        Army            77.71 Life election not                1         2,020.46
                                      documented

       3        Army            57.86 Health election not              1         1,504.36
                                      transmitted

     435        Army            25.00 TSP election shows $25           1           650.00
                                      less

     043        Army            36.74 Health cancellation not          1           955.24
                                      transmitted

     128        Army              1.22 FERS and FERS TSP off           2            31.72
                                       due to environmental
                                       differential

     204        Army              7.67 Night Differential              3           199.42
                                       calculation FERS, TSP,
                                       life

     206        Army               .30 Life insurance calculation      1             7.80

     210        Army              4.20 Life transmittal wrong,         1           109.20
                                       error

     062        Army              2.24 Life calculation error          1            23.66

     493        Army           119.59 Wrong SF50, pay,                 3         3,109.34
                                      CSRS, TSP

     207        Army            96.47 Late pay raise, FERS,            4         2,508.22
                                      TSP, life

     R-31       Army           212.00 TSP not documented               1         5,512.00


1
    R stands for Replacement Sample Item
                                                      22
Sample   Agency   Net Dollar   Error(s)                Number of Annual
Number            Amount                                Errors   Withholding
                  Per Pay                                        Error in
                  Period                                         Dollars

  30     Army          25.00 Life election not            1           650.00
                             transmitted

 496     Army          30.94 Health and life not          2           804.44
                             documented

  38     Army           8.52 Life election not            1           221.52
                             transmitted

  43     Army          36.74 Health election not          1           955.24
                             transmitted

 392     Army         295.68 TSP not documented           1         7,687.68

 112     Army           2.60 Life election not            1            67.60
                             documented

 243     Army          10.70 Health election not          1           278.20
                             transmitted

  47     Army         150.05 TSP not documented           1         3,901.30

 511     Army           1.08 Life calculation error       1            28.08

 305     Army          60.00 TSP election not             1         1,560.00
                             transmitted

  60     Army          40.00 TSP election not             1         1,040.00
                             transmitted

 133     Army          45.43 Health election not          1         1,181.18
                             transmitted

  61     Army          32.46 Calculation errors life      2           843.96
                             and health

 518     Army          35.68 Wrong SF50, pay,             3           927.68
                             FERS, TSP




                                           23
Sample   Agency   Net Dollar   Error(s)                 Number of Annual
Number            Amount                                 Errors   Withholding
                  Per Pay                                         Error in
                  Period                                          Dollars

 386     Army           9.92 Life waiver not               1           257.92
                             documented

  66     Army          45.43 Missing health                1         1,181.18
                             cancellation

 065     Army                  Life calculation error      1             7.80
                         .30

 195     Army                  Life election missing       1            10.40
                         .40

 503     Army          73.34 Wrong SF50, pay,              3         1,906.84
                             CSRS, life

  80     Army         120.82 Missing TSP and health        2         3,141.32
                             elections

 259     Army         200.40 Wrong SF50, missing           5         5,210.40
                             life, health

 440     Army            .15 Life calculation error        1             3.90

 144     Army           4.68 FERS and TSP                  2           121.68
                             calculation error

 457     Army            .35 Life calculation error        2             9.10

 120     Army           1.40 TSP, life, FERS               3            36.40
                             calculation error

 487     Army         126.52 Health, TSP not               2         3,289.52
                             transmitted

 378     Army           4.81 Life waiver not               1           125.06
                             transmitted

 328     Army            .45 Life calculation error        1            11.70




                                            24
Sample   Agency   Net Dollar   Error(s)                   Number of Annual
Number            Amount                                   Errors   Withholding
                  Per Pay                                           Error in
                  Period                                            Dollars

 266     Army          79.42 Health election not             1         2,064.92
                             documented

 091     DeCA           2.30 Life election not               1            59.80
                             documented

 167     DeCA          12.65 Health calculation error        1           328.90

 042     DeCA           6.90 Life election not               1           179.40
                             documented

 005     DeCA           6.93 Calculation error FERS          2           180.18
                             and TSP

 165     DeCA          15.88 TSP not documented              1           412.88

 043     DeCA          47.15 No SF50, pay, FERS,             4         1,225.90
                             TSP, life

 142     DeCA         177.32 Leave without pay, life         3         4,610.32

 155     DFAS          49.92 TSP cancellation not            1         1,297.92
                             transmitted

 030     DFAS          56.96 Wrong SF50, pay,                3         1,480.96
                             CSRS, life calculation
                             errors

 056     DISA          40.50 Life insurance calculation      1         1,053.00

 138     DISA          40.70 Health election transmit        1         1,058.20
                             wrong

 139     DISA          26.81 Life election not               1           697.06
                             documented

 021      DLA          12.91 TSP not documented              1           335.66




                                           25
Sample   Agency   Net        Error(s)                    Number of Annual
Number            Dollar                                  Errors   Withholding
                  Amount                                           Error in
                  Per Pay                                          Dollars
                  Period

 086      DLA         40.82 TSP not transmitted, life       2         1,061.32
                            missing

 163      DLA         36.04 Missing life and health         2           937.04
                            elections

 038      DLA          5.74 Life waiver ignored,            1           149.24
                            transmittal

 029      DoD         31.68 Late pay raise, FERS,           3           823.68
                            life

 067      DoD           .38 Life insurance calculation      1             9.88

 145     DoDEA          .57 Life insurance calculation      1            14.82

 148     DoDEA        12.88 Health transmittal wrong        1           334.88
                            code

 022     DoDEA         1.58 Life calculation error          1            41.08

 068     DoDEA        87.57 TSP not documented              1         2,276.82

 023     DoDEA       123.60 TSP election not                1         3,213.60
                            documented

 113     DoDEA       278.28 Ineligible                      4         7,235.28
                            FERS,TSP,health,life

 144     DoDEA       125.09 Life and health elections       2         3,252.34
                            not transmitted

 158      DSS         69.56 Health not transmitted          1         1,808.56

 076      DSS         16.80 Life election not               1           436.80
                            transmitted




                                          26
Sample   Agency     Net        Error(s)                    Number of Annual
Number              Dollar                                  Errors   Withholding
                    Amount                                           Error in
                    Per Pay                                          Dollars
                    Period

 035      DSS           69.44 Wrong SF50,                     4         1,805.44
                              pay,FERS,TSP,life

 104     National      104.55 Late pay increase, CSRS,        3         2,718.30
          Guard               TSP

 069     National         .34 Life transmittal wrong,         1             8.84
          Guard               error

 025     National       30.52 Health election not             1           793.52
          Guard               transmitted

 020      Navy           7.19 CSRS calculation error          1           186.94

 091      Navy            .50 Life insurance calculation      1            13.00
                              error

 202      Navy           9.30 Retirement calculation          1           241.80
                              error

 232      Navy           1.40 Life transmittal wrong,         1            36.40
                              error

 172      Navy           1.45 Life transmittal wrong,         1            37.70
                              error

 124      Navy            .49 Health transmittal wrong        1            12.74
                              code

 013      Navy          22.17 Health cancelled, not           1           576.42
                              transmitted

 125      Navy           7.44 Life waiver ignored             1           193.44

  17      Navy          19.78 Late pay raise, CSRS,           3           514.28
                              TSP




                                            27
Sample   Agency   Net Dollar   Error(s)                 Number of Annual
Number            Amount                                 Errors   Withholding
                  Per Pay                                         Error in
                  Period                                          Dollars

 102      Navy         11.75 Calculation error CSRS        2           305.50
                             and TSP

 088      Navy         88.20 TSP not documented            1         2,293.20

 20       Navy          1.40 Life election not             1            36.40
                             transmitted

 104      Navy          2.07 Calculation error             3            53.82
                             CSRS,TSP,life

 086     Navy          73.34 Late pay increase, CSRS,      3         1,906.84
                             life

 106      Navy         24.05 TSP election not              1           625.30
                             transmitted

 176      Navy         87.60 TSP election transmitted      1         2,277.60
                             late

 153      Navy         22.13 Health election not           1           575.38
                             transmitted

 027      Navy        114.14 Late SF50, pay,               4         2,967.64
                             FERS,TSP,life

 156      Navy          1.42 Life calculation error        1            36.92

 093      Navy          2.63 Calculation error             3            68.38
                             FERS,TSP,life

 054      Navy        143.60 TSP election not              1         3,733.60
                             transmitted

 237      Navy           .35 Life calculation error        1             9.10

 035      Navy         89.06 Late SF50,                    4         2,315.56
                             pay,CSRS,TSP,life




                                           28
Sample      Agency   Net Dollar   Error(s)                  Number of Annual
Number               Amount                                  Errors   Withholding
                     Per Pay                                          Error in
                     Period                                           Dollars

 037         Navy         88.26 Late pay increase, FERS,        4         2294.76
                                TSP

 105         Navy          2.26 CSRS and life calculation       2           58.76

 107         Navy         16.09 Life election not               1          418.34
                                documented

 054         NIMA         36.74 Unauthorized                    1          955.24
                                withholding health


       AF            United States Air Force

       DeCA          Defense Commissary Agency

       DISA          Defense Information Systems Agency

       DLA           Defense Logistics Agency

       DoDEA         Department of Defense Education Activity

       DSS           Defense Security Service

       NIMA          National Imagery and Mapping Agency




                                                29
Appendix C. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to determine whether
    the retirement, health benefits, and life insurance withholdings and employee data that DoD
    submitted to OPM for FY 2000 were accurate and supported.

    Universe Represented. The universe consisted of payroll records in the Defense Civilian
    Payroll System database from October 1, 1999, to September 30, 2000.

    Sampling Design. A multi-stage sampling design was used. The first stage was stratified
    by pay periods. We randomly selected without replacement 4 pay periods,
    October 23, 1999; February 26, 2000; July 1, 2000; and September 9, 2000, out of 26 pay
    periods. A fifth pay period, April 22, 2000, which was required to be reviewed by OPM,
    was used as a census stratum. At the second stage, we stratified by payroll office. For the
    4 pay periods selected to be reviewed from the first stage, we randomly selected 30 records
    from the payroll offices with greater than 30,000 but less than 100,000 records. Forty
    records were randomly selected from the payroll offices with greater than 100,000 records.
    The payroll offices with less than 30,000 records were combined and 40 records were
    randomly selected. A total of 1,200 records were reviewed from the 4 pay periods that
    were randomly selected from the first stage. For the April 22, 2000, pay period, we
    randomly selected 35 records from each of the 8 payroll offices with greater than 30,000
    records. The sample for this pay period did not include payroll offices with less than
    30,000 records. The total number of records randomly selected for review for the
    April 22, 2000, pay period was 280. Overall, we reviewed 5 pay periods and 1,480
    records.




                                            30
Sampling Results
Sample Results. We derived the following statistical estimate.

                              90 Percent Confidence Interval

                Lower Bound       Point Estimate        Upper Bound

Gross Errors $59,197,992            $67,965,352          $76,732,711

Record Errors    1,342,061            1,591,439            1,840,816

We are 90 percent confident that the total gross absolute dollar error in the Defense
Civilian Payroll System database is from $59,197,992 to $76,732,711 and the number of
inaccurate records is between 1,342,061 and 1,840,816 in the Defense Civilian Payroll
System database.

We calculated the percent of payroll records with errors to be between 7.8 percent and
10.7 percent with a point estimate of 9.29 percent. Our calculation was based on
information obtained from the DFAS web page and confirmed by DFAS to be accurate.
We calculated 17,134,000 payroll records were processed during the 26 pay periods for
FY 2000 with Charleston processing 164,000 records per pay period, Denver 295,000, and
Pensacola 200,000. We summed the payroll records processed for each location and
multiplied the total 659,000 records by 26 pay periods.




                                        31
         We also derived the following one-tail statistical estimates.

                                     95 Percent Confidence Interval

                             Lower Bound           Point Estimate

Gross Pay                       $4,946,216              $15,627,947

CSRS                                320,140                798,283

FERS                                 60,863                974,391

CSRS TSP                            304,240               2,084,276

FERS TSP                        17,090,535               23,060,687

Health                          12,067,956               19,497,565

Life                              3,037,091               6,298,155




         We are 95 percent confident that the absolute dollar error in the Defense Civilian Payroll
         System database is not less than the respective lower bound.




                                                   32
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations, and Environment)
Auditor General, Department of the Air Force




                                               33
Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Defense Information Systems Agency
Director, Defense Security Service
Director, National Imagery and Mapping Agency
Director, DoD Education Activity
Director, Civilian Personnel Management Services

Non-Defense Federal Organization
Office of Management and Budget
Office of Personnel Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and Intergovernmental
  Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government Reform




                                             34
Department of the Navy Comments

                                     Final Report
                                      Reference




                                  (not included)

                                  Pages 27-29


                                  Page 12




                                  Page 12




                  35
               Department of the Air Force Comments
Final Report
 Reference




Page 12




(not
included)




                           36
Defense Logistics Agency Comments
                                    Final Report
                                     Reference




                  37
Final Report
 Reference




Page 14




Page 14




               38
     Final Report
      Reference




          Page 14




          Page 16




39
               Defense Commissary Agency Comments
Final Report
 Reference




                              40
     Final Report
      Reference




          Page 13


          Page 13




          Page 13




          Page 15




41
               Defense Finance and Accounting Service
               Comments
Final Report
 Reference




                                  42
     Final Report
      Reference




      Pages 13-14




          Page 14




          Page 14




43
Final Report
 Reference




Page 15




               44
National Imagery and Mapping Agency
Comments
                                      Final Report
                                       Reference




                  45
Final Report
 Reference




Page 15




               46
     Final Report
      Reference




          Page 16




47
               Defense Information Systems Agency
               Comments
Final Report
 Reference




                          48
     Final Report
      Reference




          Page 14




          Page 15




49
Final Report
 Reference




               50
Civilian Personnel Management Service
Comments
                                        Final Report
                                         Reference




                  51
Final Report
 Reference




Page 10




Page 10




               52
     Final Report
      Reference




          Page 11




          Page 11




          Revised
           Page 9




          Revised
           Page 9




53
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard Bird
David F. Vincent
Thomas J. Winter
Joseph A. Powell
Jonathan M. Rabben
Frank Sonsini
Lusk Penn
James Hartmann
Lisa Y. Johnson
Alberto T. Rodriguez
Alejandra Rodriguez
Fred R. McComas
Lisa DiCamillo
Joseph Bilock
Mark Heim


Personnel of the Defense Finance and Accounting Service, Internal Review, who also
contributed to the report are listed below.

James J. Cornell
David P. Smith
Gary L. Nelson
Kimberly Goins
Ron Sulzberger
William C. King
SFC Althea Childs
Alfred Hanak
Gwenna Zacchini
